TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       The Internal Revenue Service Should
                        Improve Mainframe Software Asset
                          Management and Reduce Costs



                                        February 20, 2014

                              Reference Number: 2014-20-002




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                               HIGHLIGHTS


THE INTERNAL REVENUE SERVICE                       The IRS also does not use asset discovery,
SHOULD IMPROVE MAINFRAME                           network scanning, license management, and
SOFTWARE ASSET MANAGEMENT AND                      license metering tools to identify current usage,
REDUCE COSTS                                       deployment, and inventory of mainframe
                                                   software and related licenses. The inadequate
                                                   software license management has resulted in an
Highlights                                         estimated waste of $11.6 million and
                                                   overutilization of $1.5 million in license and
                                                   software subscription support fees.
Final Report issued on
February 20, 2014                                  WHAT TIGTA RECOMMENDED

Highlights of Reference Number: 2014-20-002        TIGTA recommended that the Chief Technology
to the Internal Revenue Service Chief              Officer develop policies and guidance, an
Technology Officer.                                enterprisewide organizational structure, and
                                                   roles and responsibilities for managing
IMPACT ON TAXPAYERS                                mainframe software assets and licenses;
                                                   implement a specialized mainframe software
Computer software is typically protected by        license management tool(s) and develop
Federal copyright law, which requires users of     detailed standard operating procedures for using
software programs to have a license authorizing    those tools; develop an enterprisewide inventory
such use. Software licenses are legal rights to    of mainframe software licensing data and
use software in accordance with terms and          maintain the inventory with a specialized
conditions specified by the software copyright     mainframe software license tool; and maintain
owner. Software license management at the          data in the inventory system that the IRS can
IRS is not being adequately performed. Efficient   use to more effectively manage mainframe
and cost-effective management of the IRS’s         software spending.
software assets is crucial to ensuring that
information technology services continue to        In their response to the report, IRS management
support the IRS’s business operations and help     agreed with all seven recommendations with
it to provide services to taxpayers efficiently.   slight modifications to three of them. The IRS
                                                   plans to enhance policies and guidance, and
WHY TIGTA DID THE AUDIT                            implement an Enterprise Software Governance
The overall objective was to determine whether     Board; clarify the enterprisewide organizational
the IRS is adequately managing mainframe           structure including roles and responsibilities for
software licenses. This audit was included in      mainframe software asset and license
TIGTA’s Fiscal Year 2013 Annual Audit Plan         management; enhance standard operating
and addresses the major management                 procedures; continue working to identify and
challenge of Achieving Program Efficiencies and    implement a standard enterprise toolkit that can
Cost Savings.                                      discover, track, and manage software license
                                                   deployment and usage; continue developing a
WHAT TIGTA FOUND                                   mainframe software inventory and identifying
                                                   and implementing a standard enterprise toolkit;
The IRS is not adequately performing mainframe     and enhance the software inventory process by
software license management and is not             leveraging tools with the data collected, which
adhering to Federal requirements and               will be consolidated and maintained in a central
recommended industry best practices. The IRS       data repository.
does not have enterprisewide or local policies,
procedures, and requirements for mainframe
software license management and does not
have a centralized, enterprisewide
organizational structure for managing mainframe
software licenses.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 20, 2014


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Internal Revenue Service Should Improve
                             Mainframe Software Asset Management and Reduce Costs
                             (Audit # 201320025).

 This report presents the results of our review of the Internal Revenue Service’s (IRS)
 management of mainframe software licenses. The overall objective of this review was to
 determine whether the IRS is adequately managing mainframe software licenses. This review
 was included in the Treasury Inspector General for Tax Administration’s Fiscal Year 2013
 Annual Audit Plan and addresses the major management challenge of Achieving Program
 Efficiencies and Cost Savings.
 Management’s complete response is included in Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Alan R. Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services).
                                     The Internal Revenue Service Should Improve
                                       Mainframe Software Asset Management
                                                   and Reduce Costs




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Internal Revenue Service Does Not Effectively
          Manage Mainframe Software ....................................................................... Page 3
                    Recommendation 1:.......................................................... Page 7

                    Recommendations 2 through 5:........................................... Page 8

                    Recommendations 6 and 7: ................................................ Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Outcome Measures............................................................... Page 16
          Appendix V – Glossary of Terms ................................................................. Page 17
          Appendix VI – Management’s Response to the Draft Report ...................... Page 20
        The Internal Revenue Service Should Improve
          Mainframe Software Asset Management
                      and Reduce Costs




               Abbreviations

GSA      General Services Administration
IBM      International Business Machines
IRS      Internal Revenue Service
IT       Information Technology
ITIL®    Information Technology Infrastructure Library
TIGTA    Treasury Inspector General for Tax Administration
                             The Internal Revenue Service Should Improve
                               Mainframe Software Asset Management
                                           and Reduce Costs




                                         Background

Mainframe computing assets play a critical role in the daily operations of the Internal Revenue
Service (IRS) and the administration of the tax code. The IRS mainframe computing
environment provides the processing for mission-critical tax processing systems, including the
Individual Master File, Business Master File, Customer Account Data Engine 2, and Integrated
Data Retrieval System.1 The IRS Information Technology (IT) organization has two sections of
employees who manage the capacity of the mainframes: the International Business Machines
(IBM) Corporation platform section and the Unisys Corporation platform section. The IRS runs
approximately 200 different software products in its mainframe environment. The IRS
purchases software and support for its mainframe environment through 12 vendor contracts—
one contract for the Unisys mainframe computers and 11 contracts for the IBM mainframe
computers.
In a previous Treasury Inspector General for Tax Administration (TIGTA) report,2 we identified
that for the desktop/laptop environment and enterprisewide policies, procedures, and
requirements, the IRS did not adequately perform software license management and did not
adhere to Federal requirements and recommended industry best practices. The IRS does not
have enterprisewide or local policies, procedures, and requirements for software license
management. TIGTA reported that the IRS does not have specialized software license tools
designed to be the repository for software and software license deployment. These tools should
be used to discover, track, manage, and detect inactive usage of software licenses. Finally, the
IRS does not have an accurate inventory of software and related licenses that contains licensing
models applicable to each software product which links data on the licenses purchased and
deployed with the purchase costs, procurement information, and monitoring and usage data. The
prior audit focused on the desktop/laptop environment and enterprisewide policies, procedures,
and requirements for software license management. This audit focused on the software and
license management of the IRS’s mainframe environment.

Mainframe software license/asset management
Software asset management is a process for tracking and reporting the use and ownership of
software assets. Forrester Research Inc. defines software asset management as:
        The systematic automation of processes to reconcile software licenses and statements of
        entitlement, maintenance contracts, and original media with installed software and those
        processes for discovering deployed software assets; to reconcile the assets to their
1
 See Appendix V for a glossary of terms.
2
 TIGTA, Ref. No. 2013-20-025, Desktop and Laptop Software License Management Is Not Being Adequately
Performed (Jun. 2013).
                                                                                                  Page 1
                           The Internal Revenue Service Should Improve
                             Mainframe Software Asset Management
                                         and Reduce Costs


       licenses, maintenance contracts, and definitions of entitlement; and to report on
       compliance and discrepancies in such a way as to minimize the risk of legal action by
       software vendors as well as loss of service to users or of reputation in the wider world.
A critical part of software asset management is mainframe software license management. The
objective of mainframe software license management is to manage, control, and protect an
organization’s software assets, including management of the risks that arise from the use of those
software assets. Proper management of mainframe software licenses helps to minimize risks by
ensuring that licenses are used in compliance with licensing agreements and deployed
cost effectively, and that software purchasing and maintenance expenses are properly controlled.
Software license management can be difficult because:
      A large amount of information on software and hardware must be discovered and stored.
      These data need to be kept current on more than an annual basis.
      Identifying installed software and software license use may be affected by the
       complexities in which software is installed and licenses are used.
      Licensing models and definitions may significantly differ depending on the software
       product and vendor.
Federal requirements established by Executive Orders, the Federal Chief Information Officer
Council, the National Institute of Standards and Technology, and the Department of the
Treasury, as well as recommended industry best practices, govern the use and management of
software licenses. These sources provide guidance to ensure that software licenses are
1) efficiently purchased and are not being unused or underused, 2) used in compliance with
copyright laws, and 3) inventoried through the use of adequate recordkeeping systems which
control and track the use of licenses.
This review was performed at the Enterprise Computing Center in Martinsburg, West Virginia,
and by contacting IT organization and Agency-Wide Shared Services personnel located at
New Carrollton, Maryland; Oxon Hill, Maryland; and Austin, Texas, during the period
November 2012 to August 2013. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                              The Internal Revenue Service Should Improve
                                Mainframe Software Asset Management
                                            and Reduce Costs




                                    Results of Review

The Internal Revenue Service Does Not Effectively Manage
Mainframe Software
Executive Order 13103, Computer Software Piracy, requires and Information Technology
Infrastructure Library (ITIL®) best practices recommend the development of software license
management policies and procedures and roles and responsibilities. The ITIL and industry best
practices recommend a centralized, enterprisewide management structure for software asset
management. These best practices indicate that some of the most significant benefits of software
asset management, both cost and risk-management benefits, come from managing software on an
enterprisewide basis. An enterprisewide management structure can actively manage software
assets to know the location, configuration, and usage history of every product. In addition, an
enterprisewide management structure supported by an enterprisewide inventory and automated
software license management tools can better provide procurement staff with the detailed and
accurate information needed to negotiate flexible, cost-effective contracts and form the basis for
cost reduction projects such as platform stabilization, volume bundling, securing longer term
agreements, and vendor or hardware consolidation. In September 2010, the IRS’s Chief
Technology Officer outlined a goal to have the IT organization implement the ITIL best practices
over the next several years. The IRS reported that the IT organization had achieved ITIL
Maturity Level 3 in October 2012.
Executive Orders,3 Department of the Treasury Directive 85-02, Software Piracy Policy,4 and
Internal Revenue Manual 10.8.25 require and ITIL and industry best practices recommend
creating and maintaining accurate enterprisewide inventories of installed software and licenses.
These inventories should contain licensing models applicable to each software product and link
the data on licenses bought and deployed, including costs. This will help ensure that software
purchased is not unused or underutilized and that software is used in compliance with copyright
laws.
The National Institute of Standards and Technology Special Publication 800-53, Recommended
Security Controls for Federal Information Systems and Organizations,6 and Treasury Directive
Publication 85-01, Treasury IT Security Program,7 require and ITIL and industry best practices

3
  Exec. Order 13103, Computer Software Piracy (1998) and Exec. Order 13589, Promoting Efficient Spending
(2011).
4
  Dated May 4, 2010.
5
  Internal Revenue Manual 10.8.2 (Sept. 9, 2012).
6
  Dated Aug. 2009.
7
  Dated Nov. 3, 2006.
                                                                                                      Page 3
                            The Internal Revenue Service Should Improve
                              Mainframe Software Asset Management
                                          and Reduce Costs


recommend implementing enterprisewide software asset discovery, network scanning, license
management, and license metering tools. Software asset discovery tools are used to identify
installed software and collect relevant details about each installed software product. Network
scanning tools are used to detect and remove any unauthorized or unlicensed installed software.
Software license management tools help to ensure compliance with licensing agreements by
tracking license usage, linking upgrades to original licenses, linking licenses bought to licenses
used, and managing the stock of unused licenses. Metering tools help to ensure that licenses are
used cost effectively by detecting installed software that is not being used, is being underutilized,
or is being overutilized so that the licenses can be managed effectively.

The IRS does not have defined policies and procedures or roles and
responsibilities for mainframe software and license management
Several IRS organizations have mission statements that suggest those organizations have some
responsibility for managing the mainframe software assets and licenses. The IT organization
includes the following divisions with such mission statements:
      Mainframe Services and Support Division. The mission of this division is to design,
       develop, deploy, and maintain the IBM and Unisys mainframe systems.
      Security Operations and Standards Division. Part of the mission of this division is to
       oversee infrastructure inventory, asset management, and procurement.
      Vendor and Contract Management Division. The mission of this division is to maximize
       the value of information technology investments by implementing effective sourcing
       strategies, monitoring vendor performance and contract management, and facilitating
       strong acquisition governance processes.
We interviewed management and personnel from the previously mentioned divisions and found
that none of the divisions are specifically responsible for maintaining an inventory of mainframe
software assets and licenses in accordance with Federal requirements and industry best practices.
In addition, none were monitoring software usage to ensure compliance with software license
agreements. Management of the Mainframe Services and Support Division informed us that,
while they do install software products on the mainframe systems, they do not have any
responsibilities for maintaining or monitoring a mainframe software inventory that is part of an
overall IRS enterprisewide software inventory in accordance with Federal requirements and
industry best practices. They do not monitor software usage to detect noncompliance with
software license agreements such as underutilization or overutilization of software licenses.
The Acquisition and Contracts Management section of the Security Operations and Standards
Division processes software requisitions for most mainframe and server software products. To
process software requisitions, the IT organization works with the customer in preparing,
approving, and submitting requisitions to the Office of Procurement. While the Acquisition and
Contracts Management section reviews all mainframe and server requisitions, including ones it

                                                                                              Page 4
                                 The Internal Revenue Service Should Improve
                                   Mainframe Software Asset Management
                                               and Reduce Costs


does not process, the section does not perform any analysis or report on software contracts or
licensing. The section does not perform any comparative analysis of software requisitions to
software inventory to determine if software purchases could be made more cost effectively.
Vendor and Contract Management Division personnel informed us that, in response to a prior
TIGTA audit report recommendation,8 they are in the process of developing roles,
responsibilities, and standards for an enterprisewide software asset management program.
However, they also informed us that the IRS has not invested in the resources to develop and
implement an effective software asset management program. For example, the IRS does not
have sufficient tools or the staffing necessary to identify software actually installed on its
systems and to help audit compliance with software license agreements so that underdeployment,
overdeployment, or discontinued use of software licenses can be identified and software
contracts and inventory adjusted accordingly. Vendor and Contract Management Division
personnel have developed a manual software and license contract management process for the
IRS’s Microsoft contract and are currently developing a similar process for the IBM software
contract. However, these processes are not an enterprisewide software asset and license
compliance management program in accordance with Federal requirements and industry best
practices.

The IRS does not maintain an inventory of mainframe software in accordance
with Federal requirements and industry best practices
The IRS does not have an inventory of mainframe software that it manages in accordance with
Federal requirements and industry best practices. According to Federal requirements and
industry best practices, an effective inventory contains licensing models applicable to each
software product and links data on the licenses purchased and deployed with the purchase costs,
procurement information, and monitoring and usage data.
Mainframe Services and Support Division personnel were unable to provide an accurate
inventory with license information. The license information for each software product is
maintained separately in the Office of Procurement contract files. In addition, software usage
was not monitored to identify software products installed but not used or to verify compliance
with software license agreements. We selected a judgmental sample9 of 30 mainframe software
products to determine if the software products were managed properly. License and usage
information for the 30 software products was not readily available in a software asset
management inventory. IRS personnel in the Acquisition and Contracts Management section of
the IT organization first performed research to identify a contract to associate with each of the
30 software products. We then obtained information about the software products by manually
researching contract files and interviewing technical points of contact and contract

8
  TIGTA, Ref. No. 2013-20-025, Desktop and Laptop Software License Management Is Not Being Adequately
Performed (Jun. 2013).
9
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                              Page 5
                             The Internal Revenue Service Should Improve
                               Mainframe Software Asset Management
                                           and Reduce Costs


representatives for each software requisition. Through interviews, we determined that the
software products are used; however, due to the lack of readily available usage information, we
could not verify the usage or determine if the IRS is in compliance with license agreements
applicable to the 30 software products reviewed.
The IRS does not use asset discovery, network scanning, license management, and license
metering tools to identify current usage, deployment, and inventory of mainframe software and
related licenses. Without these tools and a software asset and license management structure in
place, the IRS cannot effectively determine if the software contracts it enters into are reflective
of its current or future projected mainframe software license and support needs. In addition, the
IRS cannot, from an enterprisewide level, effectively manage its mainframe software and
license compliance to the contract option-year renewals. In September 2007, the IRS entered
into a five-year contract for the use and support of IBM software totaling $239 million. In
September 2012, an external contractor hired by the prime contractor, i.e., IBM, completed a
compliance review of the IRS’s contract for IBM software and related licensing. Using asset
discovery, network scanning, license management, and license metering tools, this contractor
found several issues that included overutilization and nondeployment of software products which
the IRS had purchased under the contract. In turn, the IRS hired its own contractor costing
$50,000 to evaluate the compliance review results and to assist the IRS in negotiating a new
contract agreement. The original compliance review determined that the IRS did not deploy,
i.e., purchased but did not use, mainframe licenses and software support, resulting in the IRS
wasting an estimated $11.6 million. Figure 1 provides a summary of the nondeployed software
licenses and estimated General Services Administration (GSA) list price costs.
                               Figure 1: Nondeployed Software
                                                                  Total GSA List
                                                 Subscription
                  Licenses Total GSA List                              Price           Total GSA List
     Software                                    and Support
                    Owned           Price                          Subscription          Price Value
                                                    Paid
                                                                   and Support
    Product 1            516          $848,820              516          $130,032              $978,852
    Product 2            516       $2,167,200               516          $361,200            $2,528,400
    Product 3            516       $1,590,312               516          $136,224            $1,726,536
    Product 4            156          $171,132              156           $34,476              $205,608
    Product 5            156          $571,896              156          $115,440              $687,336
    Product 6            362          $722,190              362          $109,324              $831,514
    Product 7            362       $1,444,380               362          $219,010            $1,663,390
    Product 8             50           $47,400               50             $7,200              $54,600
    Product 9            362          $595,852              362           $90,500              $686,352
    Product 10           362          $722,190              362          $109,324              $831,514
    Product 11           362       $1,263,742               362          $191,498            $1,455,240
           Total       3,720      $10,145,114             3,720        $1,504,228          $11,649,342
   Source: TIGTA analysis of IRS and contractor records, 2012 GSA Price List, and discussions with
   IRS IT organization management and personnel.

                                                                                                     Page 6
                           The Internal Revenue Service Should Improve
                             Mainframe Software Asset Management
                                         and Reduce Costs


The compliance review also found that the IRS overutilized contracted licenses and software
support on six products with an estimated GSA list price value of $1.5 million. As a result, we
estimate that the IRS owed an additional $1.5 million in licenses and software support fees at the
time of the compliance review.
The IRS does not have enterprisewide or local mainframe software asset and license
management policies and procedures, an asset and license management structure, or defined
roles and responsibilities in accordance with Federal requirements and industry best practices.
The IRS does not have an enterprisewide inventory of mainframe software assets and software
licensing data in accordance with Federal requirements and industry best practices. Additionally,
the IRS has not identified and implemented automated software license tools for the
enterprisewide management of mainframe software assets and licenses. This is due, in part, to
Internal Revenue Manual 2.14.1, Asset Management, Information Technology (IT) Asset
Management (November 8, 2011), which states in Section 13.17 that software management is
under development and that procedures are being defined.
The lack of an enterprisewide inventory with comprehensive data on all mainframe software
assets and software licensing impedes the IRS’s ability to more effectively analyze the
relationships among its software license agreements and vendors to more cost effectively buy
software licenses and maintenance. Until the IRS addresses the issues presented in this report, it
is incurring increased risks in managing software licenses. In fact, these deficiencies have
already resulted in an estimated waste of $11.6 million and overutilization of $1.5 million in
licenses and software support fees on one mainframe software contract.
The conditions identified in the compliance review of the IBM mainframe software could exist in
other mainframe software contracts. The IRS has 11 mainframe software contracts in addition to
the IBM contract. If the IRS had the software asset and license management policies,
procedures, and tools in place, the other mainframe software contracts could be analyzed for
additional cost savings and license compliance.

Recommendations
To improve the management of mainframe software licenses based on Federal requirements and
recommended industry best practices, the Chief Technology Officer should:
Recommendation 1:  Develop policies and guidance in the Internal Revenue Manual to
manage mainframe software assets and licenses using ITIL best practices.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       utilize best practices, such as the ITIL, to enhance current policies and guidance for
       managing software licensing from an enterprise perspective in support of and aligned to
       Internal Revenue Manual 2.14.1, Asset Management. The IRS will ensure that policies
       and guidance are aligned to and include the protocols, functions, and decision making

                                                                                            Page 7
                           The Internal Revenue Service Should Improve
                             Mainframe Software Asset Management
                                         and Reduce Costs


       outcomes across Associate Chief Information Officer and other enterprise units by
       implementing an Enterprise Software Governance Board.
Recommendation 2:  Develop an enterprisewide organizational structure to manage
mainframe software assets and licenses.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       clarify the enterprisewide organizational structure, including roles and responsibilities, in
       the Internal Revenue Manual for mainframe software asset and license management.
Recommendation 3:  Develop roles and responsibilities in the Internal Revenue Manual for
all organizational entities responsible for mainframe software asset and license management.
       Management’s Response: The IRS agreed with this recommendation. However, the
       IRS believes the efforts that will be carried out for Recommendation 2 of this audit will
       also achieve the necessary actions for Recommendation 3.
To help ensure that the IRS has enterprisewide processes for using mainframe software license
tools that adhere to Federal requirements and recommended industry best practices, the
Chief Technology Officer should:
Recommendation 4:  Develop detailed standard operating procedures for using mainframe
software licensing tools to manage software licenses.
       Management’s Response: The IRS agreed with this recommendation. As part of its
       enterprise approach, the IRS will enhance standard operating procedures for using
       existing and/or other toolsets, as appropriate, to manage software licensing for the
       enterprise.
Recommendation 5:  Implement a specialized mainframe software license tool(s) designed to
discover, track, and manage mainframe software license deployment and usage. The
implementation of the tool should include the development of an enterprisewide, centralized,
systematic, and repeatable method to manage and track the deployment of mainframe licenses
that can be uniformly used by all organizational entities responsible for managing licenses.
       Management’s Response: The IRS agreed with this recommendation with a slight
       modification. Based on experience, there is no single tool that can discover, track, and
       manage software license deployment and usage. For a prior TIGTA recommendation
       (Ref. No. 2013-20-025, Recommendation 4), the IRS is already working to identify and
       implement a standard enterprise toolkit, which may include multiple tools. The IRS
       believes these efforts will accomplish this recommendation.
       Office of Audit Comment: During this audit, IRS officials requested that TIGTA
       report its findings and recommendations specific to the mainframe environment so not to
       repeat a prior TIGTA audit report’s recommendations. The prior TIGTA report that the


                                                                                             Page 8
                           The Internal Revenue Service Should Improve
                             Mainframe Software Asset Management
                                         and Reduce Costs


       IRS referred to is related to the desktop and laptop environment and does not specifically
       address the mainframe environment.
To help ensure that the IRS has enterprisewide processes for mainframe software license
inventories that adhere to Federal requirements and recommended best practices, the
Chief Technology Officer should:
Recommendation 6:  Develop an enterprisewide inventory of mainframe software licensing
data and maintain the inventory with a specialized software license tool designed to discover,
track, and manage mainframe software license deployment and usage.
       Management’s Response: The IRS agreed with this recommendation with a slight
       modification. Based on experience, there is no single tool that can discover, track, and
       manage software license deployment and usage. For a prior TIGTA recommendation
       (Ref. No. 2013-20-025, Recommendation 5), the IRS is already developing a mainframe
       software inventory and will leverage this as a starting point. The IRS is also already
       identifying and implementing a standard enterprise toolkit, which may include multiple
       tools. The IRS believes these efforts will accomplish this recommendation.
       Office of Audit Comment: During this audit, IRS officials requested that we report
       our findings and recommendations specific to the mainframe environment so not to
       repeat a prior TIGTA audit report’s recommendations. The prior TIGTA report that the
       IRS referred to is related to the desktop and laptop environment and does not specifically
       address the mainframe environment.
Recommendation 7:  Maintain data in the inventory system that the IRS can use to more
effectively review mainframe software licensing agreements, purchases, deployment, usage, and
other related aspects of mainframe licensing to identify additional savings in software spending.
       Management’s Response: The IRS agreed with this recommendation with a slight
       modification. While the IRS is currently maintaining a software inventory, it will
       enhance this process by leveraging tools. Based on experience, there is no single tool
       that can discover, track, and manage software license deployment and usage. As such,
       the IRS will identify and implement a standard enterprise toolkit, which may include
       multiple tools, towards implementing this recommendation. Data collected via the toolkit
       will be consolidated and maintained in a central repository.
While the IRS agreed with all seven recommendations in the audit report to address the reported
issues, in its response, the IRS disagreed with three of the audit’s key findings and outcome
measures. Specifically:
      The IRS stated its position that the IRS did not waste $11.6 million and demonstrated it
       was compliant with IBM software terms for the 11 products.



                                                                                           Page 9
                           The Internal Revenue Service Should Improve
                             Mainframe Software Asset Management
                                         and Reduce Costs


      The IRS stated that at the time of the Deloitte compliance review, the IRS discovered a
       miscalculation of IBM mainframe sub-capacity that was valued at $642,000 not
       $1.5 million, and it was immediately corrected.
     The IRS stated it installed IBM Tivoli Asset Discovery for System z in June 2011. The
      IRS also stated that it provided information to the audit team about this installation and
      its use of the tool to maintain a software asset discovery and inventory system for the
      mainframe environment.
IRS management and the audit team discussed the 11 products detailed in the report. During this
discussion, IRS management agreed that these 11 products were paid for and were never
deployed. The IRS was also unable to provide detailed procurement or operational
documentation to determine the length and cost of the products’ non-deployment. Additionally,
there was only 1 product of the 11 that the IRS stated was recently purchased and in the process
of deployment during the 2012 compliance review. IRS management was not able to provide
any documents or evidence supporting this statement.
IRS management and the audit team also discussed, in detail, the overutilization of software that
it says was valued at $642,000 not $1.5 million. We disagree with the IRS’s estimate. The IRS
did not have sufficient documentation to support its determination, or supporting documentation
for how long this had been occurring. In our estimate of $1.5 million, we used the GSA IBM
contract schedule pricing to estimate the value of the overutilization of this software.
Finally, we analyzed the IRS’s use of the IBM Tivoli Asset Discovery tool for System z and we
discussed its use with IRS management. The IRS only uses the information obtained by this tool
when renegotiating mainframe software contracts. It is not routinely used as a mainframe
software asset discovery, network scanning, license management, and license metering tool to
identify current usage, deployment, and inventory of mainframe software and related licenses in
accordance with Federal requirement and industry best practices. In its response to
Recommendation 6, the IRS stated that it is already identifying and implementing a standard
enterprise toolkit, which may include multiple tools. The IRS believes these efforts will
accomplish this recommendation.




                                                                                          Page 10
                          The Internal Revenue Service Should Improve
                            Mainframe Software Asset Management
                                        and Reduce Costs


                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is adequately managing
mainframe software licenses. To accomplish our objective, we:
I.     Performed electronic research to identify and review Government criteria and
       requirements and non-Government best practices for software license management.
       A. Identified Government criteria and requirements.
       B. Identified non-Government best practices from recognized organizations.
       C. Identified Government criteria and requirements and previous IRS software license
          management findings from TIGTA audit reports.
       D. Reviewed, analyzed, and summarized the criteria and requirements found that were
          relevant to the IRS’s management of software licenses.
II.    Determined if the IRS developed adequate policies and procedures, and roles and
       responsibilities for the management of software licenses.
       A. Determined if the IRS had an enterprisewide policy for mainframe software license
          management that was consistent with the criteria, requirements, and best practices.
       B. Determined if the IRS had roles and responsibilities for mainframe software license
          management that were consistent with the criteria, requirements, and best practices.
       C. Determined if the IRS had business unit policies, procedures, and roles and
          responsibilities for mainframe software license management that were consistent with
          the criteria, requirements, and best practices.
III.   Determined if the IRS had a centralized mainframe licensing inventory and manages and
       maintains the inventory with software tools designed for license management.
       A. Determined if the IRS had a centralized inventory of its mainframe software assets,
          including licensing data.
       B. Determined if the IRS had adequately used mainframe software asset discovery tools
          and usage monitoring tools.
IV.    Determined if the IRS adequately managed mainframe software licenses on a sample of
       software products.
       A. Determined the inventory data the IRS has on its software products.

                                                                                         Page 11
                                   The Internal Revenue Service Should Improve
                                     Mainframe Software Asset Management
                                                 and Reduce Costs


           B. Developed a sampling methodology and selected a judgmental sample1 of
              30 mainframe software products for review. A judgmental sampling methodology
              was used because the IRS did not have an enterprisewide valid population of
              mainframe software from which to sample.
                1. To select a judgmental sample of software for review, we began with a universe
                   of 211 IBM mainframe environment software products. We then generated a list
                   of random integers to judgmentally select 25 products from this universe. We
                   selected 25 products for review based on the staff resources available to review
                   the sample. Also, when the selected software product was not suitable for review
                   due to a lack of information about the product, we selected the next software
                   product listed.
                2. We reviewed five Unisys software products that IRS management indicated may
                   be candidates for cost savings.
           C. Reviewed the sample of 30 mainframe software products to determine the scope of
              the IRS’s mainframe software and licensing management and tracking activities.
           D. On each of the selected software products, obtained additional documentation and
              interviewed IRS employees as necessary to substantiate the accuracy of the software
              licensing data being managed and tracked.
           E. On each of the selected software products, determined if the IRS is managing and
              tracking licenses.
           F. On each of the sampled mainframe software products, determined how exceptions or
              noncompliance with software licenses were resolved.
           G. Determined if the software licensing data that are managed and tracked on each of the
              selected software products are shared with the Office of Procurement staff to help
              better negotiate software license purchases and maintenance agreements with
              vendors.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IT organization’s policies, procedures,
and processes for managing and tracking mainframe software licenses. We evaluated these
controls by interviewing IT organization management, identifying Federal requirements and


1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 12
                           The Internal Revenue Service Should Improve
                             Mainframe Software Asset Management
                                         and Reduce Costs


industry best practices for managing and tracking software licenses, and reviewing software
license management and tracking on a sample of mainframe software products.




                                                                                        Page 13
                          The Internal Revenue Service Should Improve
                            Mainframe Software Asset Management
                                        and Reduce Costs


                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
John Ledford, Audit Manager
Ryan Perry, Lead Auditor
Joan Bonomi, Senior Auditor
Larry Reimer, Senior Auditor




                                                                                     Page 14
                        The Internal Revenue Service Should Improve
                          Mainframe Software Asset Management
                                      and Reduce Costs


                                                                            Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Associate Chief Information Officer, User and Network Services OS:CTO:UNS
Director, Operations Service Support OS:CTO:UNS:OS
Director, Vendor Contract Management OS:CTO:SP:VCM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluations and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management OS:CTO:SP:RM




                                                                                  Page 15
                           The Internal Revenue Service Should Improve
                             Mainframe Software Asset Management
                                         and Reduce Costs


                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Inefficient Use of Resources – Potential; $11,649,342 (see page 3).

Methodology Used to Measure the Reported Benefit:
On behalf of IBM, a third-party contractor conducted a compliance review of the IRS’s software
license agreements associated with its IBM software contract. The compliance review identified
that the IRS had purchased but had not deployed software licenses and related software and
subscription support. Specifically, the IRS paid for 11 IBM mainframe software products but did
not have them deployed.
The IBM contract in effect when the compliance review was performed did not include itemized
pricing information that TIGTA could use to determine the exact cost of the nondeployed
software licenses and related subscription support. Using the 2012 IBM GSA Price List, the
only itemized pricing information available, we estimated that the IRS had purchased and did not
deploy $11,649,342 in licenses and software subscription support.

Type and Value of Outcome Measure:
   Funds Put to Better Use – Potential; $50,000 (see page 3).

Methodology Used to Measure the Reported Benefit:
Due to the lack of a mainframe software asset management program, including software asset
and license management tools that would give the IRS insight into its IBM mainframe software
license compliance, the IRS hired a contractor at a cost of $50,000 to evaluate and verify the
results of the compliance audit performed by a contractor hired by IBM.




                                                                                          Page 16
                            The Internal Revenue Service Should Improve
                              Mainframe Software Asset Management
                                          and Reduce Costs


                                                                                        Appendix V

                                 Glossary of Terms

           Term                                               Definition
Best Practices                 Proven activities or processes that have been successfully used by
                               multiple organizations.
Business Master File           The IRS database that consists of Federal tax transactions and accounts
                               for businesses. These include employment taxes, income taxes on
                               businesses, and excise taxes.
Customer Account Data          An IRS application that will replace the existing Individual Master File
Engine 2                       and Customer Account Data Engine applications. The Customer
                               Account Data Engine 2 is designed to provide state-of-the-art individual
                               taxpayer account processing and technologies to improve service to
                               taxpayers and enhance IRS tax administration.
Executive Orders               Legally binding orders given by the President, acting as the head of the
                               Executive Branch, to Federal Administrative Agencies. Executive
                               Orders are generally used to direct Federal agencies and officials in their
                               execution of congressionally established laws or policies.
Executive Order 13103,         Requires Federal agencies to develop software license management
Computer Software Piracy       policies and procedures. It also requires Federal agencies to prepare
                               inventories of software present on computers to help ensure that
                               software is used in compliance with copyright laws.
Executive Order 13589,         Requires Federal agencies to take inventory of their information
Promoting Efficient Spending   technology assets and ensure that they are not paying for unused or
                               underutilized installed software.
Federal Chief Information      As the principal interagency forum on Federal information technology,
Officer Council                the purpose of the Federal Chief Information Officer Council is to foster
                               collaboration among Federal Government Chief Information Officers in
                               strengthening Governmentwide information technology management
                               practices.
Forrester Research Inc.        A global research and advisory firm that provides research guidance to
                               the information technology industry.
Individual Master File         The IRS database that maintains transactions or records of individual tax
                               accounts.



                                                                                                 Page 17
                            The Internal Revenue Service Should Improve
                              Mainframe Software Asset Management
                                          and Reduce Costs



           Term                                              Definition
Information Technology        Provides guidelines for the use and management of software and
Infrastructure Library        licenses.
                                       ®
                              The ITIL is a widely accepted set of concepts and practices for
                              information technology service management derived from user and
                              vendor experts in both the private and public sectors. The ITIL focuses
                              on the key service management principles pertaining to service strategy,
                              service design, service transition, service operation, and continual
                              service improvement with each principle being covered in a separate
                              ITIL core publication. Software asset management is a key process
                              described within the service transition core publication. The ITIL also
                              has a separate publication entitled Best Practice Software Asset
                              Management that covers software asset and license management best
                              practices in more depth than the core publication. ITIL best practices
                              recommend 1) the development of software license management
                              policies and procedures, and roles and responsibilities, 2) a centralized,
                              enterprisewide management structure for software asset management,
                              3) the use of software license management tools, and 4) the creation and
                              maintenance of accurate enterprisewide inventories of software licenses.
Information Technology        Maturity levels refer to an IT organization’s ability to perform. An
Infrastructure Library        organization passes through five evolutionary levels as it becomes more
Maturity Levels               competent.
                              Level 1: Initial – Focuses on technology and technology
                              excellence/experts.
                              Level 2: Repeatable – Focuses on products/services and operational
                              processes, e.g., service support.
                              Level 3: Defined – Focuses on the customer and proper service-level
                              management.
                              Level 4: Managed – Focuses on business/information technology
                              alignment.
                              Level 5: Optimized – Focuses on value and the seamless integration of
                              information technology into the business and strategy making.
Integrated Data Retrieval     IRS computer system capable of retrieving or updating stored
System                        information. It works in conjunction with a taxpayer’s account records.
National Institute of         A part of the Department of Commerce that is responsible for
Standards and Technology      developing standards and guidelines for providing adequate information
                              security for all Federal Government agency operations and assets.


                                                                                                Page 18
                              The Internal Revenue Service Should Improve
                                Mainframe Software Asset Management
                                            and Reduce Costs



           Term                                               Definition
National Institute of           Requires that Federal agencies employ tracking systems, such as
Standards and Technology        specialized fully automated applications depending on the needs of the
Special Publication             organization, for software protected by quantity licenses to control
800-53, Recommended             copying and distribution and to help ensure that software is used in
Security Controls for Federal   accordance with licensing agreements.
Information Systems and
Organizations
Software License Agreement      The legal contract between the owner and purchaser of a piece of
                                software that establishes the purchaser’s rights. A software license
                                agreement provides details and limitations on where, how, how often,
                                and when the software can be installed and used, and provides
                                restrictions that are imposed on the software. The agreement includes
                                the licensing model that will be used for defining and measuring the use
                                of the software. For example, a common simple license model could be
                                based on how many people can use the software and how many systems
                                the software may be installed on. Software companies also make special
                                license agreements for large business and Government entities that may
                                be different from those provided to the general consumer.
Treasury Directive              Requires that bureaus periodically scan their networks to detect and
Publication 85-01, Treasury     remove any unauthorized or unlicensed software.
IT Security Program
Treasury Directive 85-02,       Issued to implement Executive Order 13103 and requires that bureaus
Software Piracy Policy          establish and maintain an accurate software inventory to help ensure that
                                software is used in accordance with software license agreements.




                                                                                                 Page 19
         The Internal Revenue Service Should Improve
           Mainframe Software Asset Management
                       and Reduce Costs


                                                 Appendix VI

Management’s Response to the Draft Report




                                                       Page 20
The Internal Revenue Service Should Improve
  Mainframe Software Asset Management
              and Reduce Costs




                                              Page 21
The Internal Revenue Service Should Improve
  Mainframe Software Asset Management
              and Reduce Costs




                                              Page 22
The Internal Revenue Service Should Improve
  Mainframe Software Asset Management
              and Reduce Costs




                                              Page 23
The Internal Revenue Service Should Improve
  Mainframe Software Asset Management
              and Reduce Costs




                                              Page 24
The Internal Revenue Service Should Improve
  Mainframe Software Asset Management
              and Reduce Costs




                                              Page 25
The Internal Revenue Service Should Improve
  Mainframe Software Asset Management
              and Reduce Costs




                                              Page 26
